April 20, 2012

TO:              Marilyn Tavenner
                 Acting Administrator
                 Centers for Medicare & Medicaid Services


FROM:            /Daniel R. Levinson/
                 Inspector General


SUBJECT:         Review of Medicaid Payments for Services Provided Under New Jersey’s
                 Section 1915(c) Community Care Waiver Program From January 1, 2005,
                 Through December 31, 2007 (A-02-10-01029)


Attached, for your information, is an advance copy of our final report on Medicaid payments for
services provided under New Jersey’s section 1915(c) Community Care Waiver program. We
will issue this report to the New Jersey Department of Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-10-01029.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION II
                                                                J ACOB K. J AVITS F EDERAL B UILDING
April 23, 2012                                                       26 F EDERAL P LAZA , R OOM 3900
                                                                              N EW Y ORK, NY 10278
Report Number: A-02-10-01029

Ms. Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments for Services Provided Under
New Jersey’s Section 1915(c) Community Care Waiver Program From January 1, 2005,
Through December 31, 2007. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Brenda Tierney, Audit Manager, at (518) 437-9390, extension 222, or through email at
Brenda.Tierney@oig.hhs.gov. Please refer to report number A-02-10-01029 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




   REVIEW OF MEDICAID PAYMENTS
 FOR SERVICES PROVIDED UNDER NEW
JERSEY’S SECTION 1915(C) COMMUNITY
    CARE WAIVER PROGRAM FROM
     JANUARY 1, 2005, THROUGH
         DECEMBER 31, 2007




                         Daniel R. Levinson
                          Inspector General

                             April 2012
                           A-02-10-01029
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid.

The New Jersey Department of Human Services (State agency) administers New Jersey’s (the
State) Medicaid program and provides oversight for compliance with Federal requirements. The
State’s Community Care Waiver (CCW) program allows the State agency to claim Medicaid
reimbursement for HCBS provided to individuals with intellectual and developmental
disabilities. Without HCBS, these individuals would require institutionalization in an
Intermediate Care Facility for the Mentally Retarded (ICF/MR).

The State agency administers the CCW program through its Division of Developmental
Disabilities (division). Under the CCW program, each beneficiary is required to have a plan of
care (individual habilitation plan) and a level-of-care assessment completed every 12 months.
For an individual to be assessed as eligible for the CCW program, a qualified mental retardation
professional (qualified specialist) must certify that the beneficiary was assessed to need an
ICF/MR level of care. The division must maintain documentation of each habilitation plan and
assessment for at least 3 years.

During calendar years 2005 through 2007, the State agency claimed Federal reimbursement
totaling $1.4 billion for services provided under the CCW program. In prior audits, we reviewed
the two highest paid providers in the CCW program during this period. In this audit, we
reviewed 281,014 beneficiary-months of service with a total Medicaid-paid amount greater than
$100, totaling $1,273,784,688 ($636,892,344 Federal share), for the remaining providers in the
CCW program. A beneficiary-month includes all CCW program services for a State beneficiary
for 1 month.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for Medicaid reimbursement
for CCW program services complied with certain Federal and State requirements.




                                                i
SUMMARY OF FINDINGS

The State agency claimed Federal Medicaid reimbursement for some CCW program services that
did not comply with certain Federal and State requirements. Of the 146 beneficiary-months in
our random sample, the State agency properly claimed Medicaid reimbursement for all CCW
program services in 23 beneficiary-months. However, the State agency claimed Medicaid
reimbursement for services that were not allowable for the remaining 123 beneficiary-months.
Of these 123 beneficiary-months, 28 contained more than 1 deficiency.

The claims for unallowable services were made because: (1) the division and most providers did
not ensure that they claimed reimbursement only for documented, allowable CCW program
services; (2) the division did not ensure that CCW program services were provided only to
beneficiaries with completed and approved individual habilitation plans; and (3) the division did
not ensure and document that all beneficiaries were assessed and certified to require an ICF/MR
level of care.

Based on our sample results, we estimated that the State agency improperly claimed $60,740,637
in Federal Medicaid reimbursement for CCW program services that did not comply with certain
Federal and State requirements during calendar years 2005 through 2007.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $60,740,637 to the Federal Government;

   •   require the division and providers to ensure that they claim reimbursement only for
       documented, allowable CCW program services;

   •   require the division to ensure that CCW program services are provided only to
       beneficiaries for whom there is a completed and approved individual habilitation plan;
       and

   •   require the division to ensure and document that all CCW program beneficiaries
       approved for services have been assessed and certified to need an ICF/MR level of care.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with part of our first
recommendation and described actions that it has taken or planned to take to address the
remaining findings and recommendations. Under separate cover, the State agency provided
additional documentation to support services that we questioned in our draft report for lacking
adequate documentation. In addition, the State agency disagreed with our findings related to
incomplete individual habilitation plans and CCW program services provided to beneficiaries
who were not assessed and certified to require an ICF/MR level of care. Specifically, the State

                                                ii
agency indicated that a habilitation plan coordinator’s signature in the attendance section of the
beneficiary’s individual habilitation plan indicated that the plan was complete and demonstrated
that the beneficiary’s level of care determination had been recertified.

After reviewing the State agency’s comments and additional documentation, we revised our
findings regarding inadequate documentation and modified our statistical estimates accordingly.
We maintain that our remaining findings are valid. Regarding the State agency’s comments that
a signature in the attendance section of the beneficiary’s individual habilitation plan indicated
that the plan was complete and demonstrated that the beneficiary’s level of care determination
had been recertified, we note that this section of the plan is distinct from the “Community Care
Waiver Certification” (emphasis in original) section on the same page of the plan. The section
indicated in the State agency’s comments is listed as being intended for attendance purposes,
whereas the certification section includes a space for qualified specialists to certify that they have
reviewed the plan and determined that the beneficiary “continues to have functional limitations
and requires active treatment and ICF/MR level services” for a specific period. In every
individual habilitation plan where we found an absence of a qualified specialist’s approval or
certification, the “Community Care Waiver Certification” was unsigned.

The State agency’s comments appear in their entirety as Appendix D.




                                                 iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Medicaid Program .............................................................................................. 1
              Home and Community-Based Services Waivers ............................................... 1
              New Jersey’s Community Care Waiver Program .............................................. 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 2
               Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          UNALLOWABLE COMMUNITY CARE WAIVER PROGRAM SERVICES ......... 5
              Services Not Documented.................................................................................. 5
              Services Not Provided........................................................................................ 5
              Individual Habilitation Plan Not Complete or Available .................................. 6
              Level-of-Care Assessment Not Documented..................................................... 6

          CAUSES OF UNALLOWABLE CLAIMS .................................................................. 6

          RECOMMENDATIONS ............................................................................................... 7

          STATE AGENCY COMMENTS .................................................................................. 7

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 7

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
              BENEFICIARY-MONTH

          D: STATE AGENCY COMMENTS




                                                                     iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements. The New Jersey Department of Human Services (State
agency) administers New Jersey’s (the State) Medicaid program and provides oversight for
compliance with Federal requirements.

Home and Community-Based Services Waivers

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid. HCBS are
generally provided to Medicaid-eligible beneficiaries in the community rather than in an
institutional setting.

Section 1915(c)(1) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(iii)) provide that
HCBS may be provided only to recipients who have been determined would, in the absence of
such services, require the Medicaid-covered level of care provided in a hospital, a nursing
facility, or an intermediate care facility for persons with mental retardation. Pursuant to section
1915(c)(1) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(i)), HCBS must be
furnished under a written plan of care subject to approval by each State’s State agency. In
addition, Federal regulations (42 CFR § 441.302(c)) require a State agency to provide for an
initial evaluation of the recipient’s need for the level of care that would be provided in an
institution unless the individual received HCBS. The regulations further require at least annual
reevaluations of each recipient receiving HCBS.

According to section 4442.6 of CMS’s State Medicaid Manual, an assessment of the individual
to determine the services needed to prevent institutionalization must be included in the plan of
care. In addition, the plan of care must specify the medical and other services to be provided,
their frequency, and the type of provider. No Federal financial participation is available under a
section 1915(c) waiver for HCBS furnished without a written plan of care.

New Jersey’s Community Care Waiver Program

The State’s HCBS waiver program includes the Community Care Waiver (CCW) program,
which is administered by the State agency through its Division of Developmental Disabilities
(division). The division is responsible for the implementation and operation of the CCW

                                                 1
program. 1 The CCW program allows the State agency to claim Medicaid reimbursement on a
fee-for-service basis for HCBS provided to individuals with intellectual and developmental
disabilities. Without HCBS, these individuals would require institutionalization in an
Intermediate Care Facility for the Mentally Retarded (ICF/MR). Most of the CCW program
services are provided through State contracts with private organizations or individuals. 2

According to the State’s waiver agreement with CMS, to be eligible for the State’s CCW
program, a beneficiary must be a Medicaid recipient, be diagnosed as mentally retarded or
developmentally disabled, and be assessed to need an ICF/MR level of care. In addition, each
beneficiary is required to have a plan of care (individual habilitation plan) and a level-of-care
assessment completed every 12 months. For the assessment, a qualified mental retardation
professional (qualified specialist), who may be employed by either the service provider or the
division, must certify that the beneficiary was assessed to need an ICF/MR level of care. The
division must maintain documentation of each individual habilitation plan and assessment for at
least 3 years. The State agency must also ensure financial accountability for funds expended for
HCBS, as well as maintain appropriate financial records documenting the cost of services
provided under the waiver.

During calendar years (CY) 2005 through 2007, the State agency claimed Federal reimbursement
for providers totaling $1.4 billion for services provided under the CCW program.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for Medicaid reimbursement
for CCW program services complied with certain Federal and State requirements.

Scope

Our review covered the State agency’s claims for Medicaid reimbursement for HCBS provided
under the CCW program during CYs 2005 through 2007. During this period, the State agency
claimed $1,273,784,688 ($636,892,344 Federal share) for services provided in 281,014
beneficiary-months. 3



1
 According to its waiver agreement with CMS, the State agency’s Division of Medical Assistance and Health
Services has “final responsibility” for the oversight of the program.
2
  The CCW program includes case management; respite care (short period of rest or relief for a caregiver);
day habilitation (assistance with improvement in self-help, socialization, and adaptive skills in a nonresidential
setting); supported employment (support to perform in a paid work setting); environmental and vehicle adaptation;
personal emergency response systems; individual support (in a residential facility or a beneficiary’s home); and
integrated therapy services.
3
 A beneficiary-month includes all CCW program services for a beneficiary for 1 month. A beneficiary-month
could include multiple services.

                                                         2
The scope of our audit did not require us to perform a medical review or an evaluation of the
medical necessity for the services claimed for reimbursement.

We did not assess the State agency’s overall internal control structure or all the internal controls
over the CCW program. Rather, we limited our review of internal controls to those applicable to
our objective. We reviewed the providers’ and the division’s internal controls for documenting
CCW program services billed and claimed for reimbursement. We did not assess the
appropriateness of HCBS payment rates.

We performed our fieldwork at 65 CCW provider offices throughout the State and at the
division’s offices in Trenton, New Jersey, from June 2010 to March 2011.

Methodology

To accomplish our objective, we:

        •   reviewed applicable Federal and State Medicaid HCBS waiver laws, regulations, and
            guidance;

        •   met with CMS financial and program management officials to gain an understanding
            of the HCBS waiver approval, administration, and assessment processes;

        •   met with State agency officials to discuss the State agency’s administration and
            monitoring of the CCW program;

        •   interviewed division and provider officials regarding their CCW program policies and
            procedures;

        •   reconciled the CCW program services claimed for Federal reimbursement by the
            State agency on the Form CMS-64, Quarterly Medicaid Statement of Expenditures
            for the Medical Assistance Program, to the population of all payments for CCW
            program services made to providers statewide obtained from the State’s Medicaid
            Management Information System for the quarter ended June 30, 2007;

        •   obtained from the State’s Medicaid Management Information System a sampling
            frame of 339,457 beneficiary-months with CCW program services for which the State
            agency claimed reimbursement totaling $1,389,894,715 ($694,947,358 Federal share)
            during CYs 2005 through 2007;

        •   removed all beneficiary-months for the two providers reviewed separately—Elwyn
            New Jersey and Bancroft NeuroHealth 4—and all beneficiary-months of service with
            total Medicaid payments of less than or equal to $100 from our sampling frame;
4
 Review of Medicaid Payments for Services Provided Under New Jersey’s Section 1915(c) Community Care Waiver
by Elwyn New Jersey From January 1, 2005, Through December 31, 2007 (A-02-09-01033, July 27, 2011) and
Review of Medicaid Payments for Services Provided Under New Jersey’s Section 1915(c) Community Care Waiver
by Bancroft NeuroHealth From January 1, 2005, Through December 31, 2007 (A-02-09-01034, March 22, 2012).

                                                    3
       •   determined that our revised sampling frame consisted of 281,014 beneficiary-months
           totaling $1,273,784,688 ($636,892,344 Federal share) during CYs 2005 through
           2007;

       •   selected a stratified random sample of 146 beneficiary-months and for each
           beneficiary-month:

           o determined whether the beneficiary was assessed by a qualified specialist to be
             eligible for the CCW program,

           o determined whether CCW program services were provided in accordance with an
             approved individual habilitation plan,

           o determined whether the staff members who provided the services met qualification
             and training requirements,

           o determined whether documentation supported the CCW program services billed,
             and

           o identified services that were not provided or documented in accordance with
             Federal and State requirements; and

       •   estimated the unallowable Federal Medicaid reimbursement paid in the total
           population of 281,014 beneficiary-months.

Appendix A contains the details of our sample design and methodology. Appendix B contains
our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency claimed Federal Medicaid reimbursement for some CCW program services
performed by providers that did not comply with certain Federal and State requirements. Of the
146 beneficiary-months in our random sample, the State agency properly claimed Medicaid
reimbursement for CCW program services in 23 beneficiary-months. For the remaining
123 beneficiary-months, the State agency improperly claimed Medicaid reimbursement totaling
$446,554 ($223,277 Federal share) for services that did not comply with certain Federal and
State requirements. Of these 123 beneficiary-months, 28 contained more than 1 deficiency, for a
total of 157 deficiencies. Appendix C contains a summary of deficiencies, if any, identified for
each sampled beneficiary-month.

                                                4
The claims for unallowable services were made because: (1) the division and most providers did
not ensure that they claimed reimbursement only for documented, allowable CCW program
services; (2) the division did not ensure that CCW program services were provided only to
beneficiaries with completed and approved individual habilitation plans; and (3) the division did
not ensure and document that all beneficiaries were assessed and certified to require an ICF/MR
level of care. Based on our sample results, we estimated that the State agency improperly
claimed $60,740,637 in Federal Medicaid reimbursement for CCW program services performed
by providers that did not comply with certain Federal and State requirements during CYs 2005
through 2007.

UNALLOWABLE COMMUNITY CARE WAIVER PROGRAM SERVICES

Services Not Documented

Section 1902(a)(27) of the Act (42 U.S.C. § 1396a(a)(27)) mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary to
disclose fully the extent of the services provided to individuals receiving assistance under the
State plan. Pursuant to Office of Management and Budget Circular A-87, Cost Principles for
State, Local, and Tribal Governments, Att. A, § C.1.j (2 CFR § 225, App. A § C.1.j), costs must
be adequately documented to be allowable under Federal awards. According to section 2500.2
of CMS’s State Medicaid Manual, States are to report only expenditures for which all supporting
documentation, in readily reviewable form, has been compiled and that is immediately available
when the claim is filed. 5

For 120 beneficiary-months, the State agency claimed reimbursement for services that were not
adequately documented. For these services, providers did not maintain service notes to support
the services billed.

Services Not Provided

Section 1902(a)(27) of the Act (42 U.S.C. § 1396a(a)(27)) mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary to
disclose fully the extent of the services provided to individuals receiving assistance under a State
plan. According to section 2497.1 of CMS’s State Medicaid Manual, Federal financial
participation is available only for allowable actual expenditures made on behalf of eligible
recipients for covered services rendered by certified providers.

For 21 beneficiary-months, the State agency claimed reimbursement for services that were not
provided. For these beneficiary-months, the State agency claimed reimbursement for both
community support and respite care services when the beneficiary received only one of the two
services. Specifically, the providers’ records indicated that the community support services were

5
  Supporting documentation includes at a minimum the following: date of service; name of recipient; Medicaid
identification number; name of provider agency and person providing the service; nature, extent, and units of
service; and place of service.


                                                        5
not provided for 11 beneficiary-months and the respite care services were not provided for 10
beneficiary-months.

Individual Habilitation Plan Not Complete or Available

Pursuant to section 1915(c)(1) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(i)),
HCBS are to be provided only under a written plan of care subject to approval by a State
Medicaid agency. According to the State’s waiver agreement with CMS, an eligible CCW
program beneficiary must have an individual habilitation plan completed by a qualified specialist
every 12 months and the division and the CCW program service provider must maintain
documentation of the individual habilitation plans for at least 3 years.

For nine beneficiary-months, the State agency claimed reimbursement for some services
provided to beneficiaries for whom neither the division nor the provider could provide approved
or complete individual habilitation plans. Specifically, eight individual habilitation plans were
not approved by qualified specialists and one individual habilitation plan was incomplete.

Level-of-Care Assessment Not Documented

Pursuant to section1915(c) of the Act and 42 CFR § 441.301(b)(1)(iii), HCBS are to be provided
only to a recipient who would, in the absence of these services, require the Medicaid level of
care provided in a hospital, nursing facility, or ICF/MR. Federal regulations (42 CFR
§§ 441.302(c) and 441.303(c)) require a State agency to provide for an initial evaluation and
periodic reevaluations, at least annually, of the recipient’s need for the level of care that would
be provided in an institution unless the individual received HCBS. According to the State’s
waiver agreement with CMS, an eligible CCW program beneficiary must be assessed and
certified by a qualified specialist to need an ICF/MR level of care every 12 months and the
division must maintain documentation of the assessments for at least 3 years.

For seven beneficiary-months, the State agency claimed reimbursement for CCW program
services provided to beneficiaries for whom the ICF/MR level-of-care assessment was not
approved by a qualified specialist.

CAUSES OF UNALLOWABLE CLAIMS

The State agency did not ensure that it claimed reimbursement only for allowable and
documented CCW program services provided by CCW providers. Specifically, for some
services, providers did not maintain either documentation to support the services billed or
records indicating that services were provided. In addition, the division did not ensure that
individual habilitation plans were complete and approved for CCW program services.

Lastly, the division did not ensure and document that all CCW program beneficiaries were
assessed and certified to need an ICF/MR level of care. Specifically, for some beneficiaries, the
CCW certification section of the individual habilitation plan was incomplete, and no other
documentation was available to indicate that the required annual level of care assessment was
performed. For our audit period, the State agency did not have a standard form for assessing a


                                                 6
program applicant’s level of care, and the CCW certification section of the individual habilitation
plan was the only documentation of the beneficiary’s need for an ICF/MR level of care. 6

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $60,740,637 to the Federal Government;

    •   require the division and providers to ensure that they claim reimbursement only for
        documented, allowable CCW program services,

    •   require the division to ensure that CCW program services are provided only to
        beneficiaries for whom there is a completed and approved individual habilitation plan,
        and

    •   require the division to ensure and document that all CCW program beneficiaries
        approved for services have been assessed and certified to need an ICF/MR level of care.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with part of our first
recommendation and described actions that it has taken or planned to take to address the
remaining findings and recommendations. Under separate cover, the State agency provided
additional documentation to support services that we questioned in our draft report for lacking
adequate documentation.

In addition, the State agency disagreed with our findings related to incomplete individual
habilitation plans and CCW program services provided to beneficiaries who were not assessed
and certified to require an ICF/MR level of care. Specifically, the State agency indicated that a
habilitation plan coordinator’s signature in the attendance section of the beneficiary’s individual
habilitation plan indicated that the plan was complete and the level of care determination had
been recertified.

The State agency’s comments appear in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments and additional documentation, we revised our
findings regarding inadequate documentation and modified our statistical estimates accordingly.
We maintain that our remaining findings are valid.




6
 The State agency issued a Self Care Assessment Tool in November 2005, but it was not approved by CMS until
after our audit period.

                                                      7
Regarding the State agency’s comments that a signature in the attendance section of the
beneficiary’s individual habilitation plan indicated that the plan was complete and demonstrated
that the beneficiary’s level of care determination had been recertified, we note that this section of
the plan is distinct from the “Community Care Waiver Certification” (emphasis in original)
section on the same page of the plan. The section indicated in the State agency’s comments is
listed as being intended for attendance purposes, whereas the certification section includes a
space for qualified specialists to certify that they have reviewed the plan and determined that the
beneficiary “continues to have functional limitations and requires active treatment and ICF/MR
level services” for a specific period. In every individual habilitation plan where we found an
absence of a qualified specialist approval or certification, the “Community Care Waiver
Certification” was unsigned.




                                                  8
APPENDIXES
                                                                                   Page 1 of 2


               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of beneficiary-months of service with a total Medicaid-paid amount
greater than $100 provided by Community Care Waiver (CCW) program providers for which the
New Jersey Department of Human Services (State agency) received Medicaid reimbursement
under New Jersey’s CCW program during calendar years 2005 through 2007.

SAMPLING FRAME

The sampling frame was an Access file containing 281,014 beneficiary-months of service with a
total Medicaid-paid amount greater than $100 totaling $1,273,784,688 ($636,892,344 Federal
share). We eliminated from the sampling frame all beneficiary-months for the two highest paid
providers of service in the State, Elwyn New Jersey and Bancroft NeuroHealth, which we
reviewed separately. The data for beneficiary-months of service under the New Jersey CCW
program were extracted from the New Jersey Medicaid Management Information System.

SAMPLE UNIT

The sample unit was a beneficiary-month during calendar years 2005 through 2007 for which the
State agency claimed Medicaid reimbursement for services provided under the CCW program.
A beneficiary-month is defined as all CCW program services for one beneficiary for 1 month.

SAMPLE DESIGN

We used a stratified random sample to review Medicaid payments made to the State agency on
behalf of beneficiaries enrolled in the New Jersey CCW program. To accomplish this, we
separated the sampling frame into two strata, as follows:

   •   Stratum 1: beneficiary-months with total payments greater than $100 and less than or
       equal to $15,000—280,968 beneficiary-months totaling $1,273,065,349 ($636,532,675
       Federal share).

   •   Stratum 2: beneficiary-months with total payments greater than $15,000—
       46 beneficiary-months, totaling $719,339 ($359,669 Federal share).

SAMPLE SIZE

We selected a sample of 146 beneficiary-months of service, as follows:

   •   100 beneficiary-months from stratum 1 and

   •   46 beneficiary-months from stratum 2.
                                                                                     Page 2 of 2


SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services statistical software,
RAT-STATS 2007. We used the random number generator for our stratified random sample.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the first stratum. After generating 100 random
numbers for this stratum, we selected the corresponding frame items. We selected for review all
46 beneficiary-months in stratum 2. We then created a list of 146 sampled items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit of a 90-percent
confidence interval to estimate the overpayment associated with the unallowable services in the
beneficiary-months.
                APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                Sample Details and Results

                                                              No. of
                                                            Beneficiary-    Value of
                          Value of               Value of     Months       Unallowable
          Beneficiary-     Frame                  Sample       With         Services
           Months in      (Federal      Sample   (Federal   Unallowable     (Federal
Stratum     Frame          Share)        Size     Share)     Services        Share)
   1        280,968      $636,532,675     100    $226,058        77          $32,021
   2              46        $359,669       46    $359,670        46         $191,256
 Total      281,014      $636,892,344     146    $585,728       123         $223,277



                Estimated Value of Unallowable Services (Federal Share)
                 (Limits Calculated for a 90-Percent Confidence Interval)

                         Point Estimate              $90,160,370
                          Lower Limit                $60,740,637
                          Upper Limit               $119,580,104
                                                                                              Page 1 of 5


          APPENDIX C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
                          BENEFICIARY-MONTH

                                            Legend
1      Services Not Documented
2      Services Not Provided
3      Individual Habilitation Plan Not Complete or Available
4      Level-of-Care Assessment Not Documented

Office of Inspector General Review Determinations for the 146 Sampled Beneficiary-Months

      Sample
    Beneficiary-                                                                 No. of
      Month        Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
      S1-1              X                                                           1
      S1-2              X                                                           1
      S1-3              X                                                           1
      S1-4              X                                                           1
      S1-5              X                                                           1
      S1-6                                                                          0
      S1-7                                                                          0
      S1-8                                                                          0
      S1-9              X                                                           1
      S1-10             X                                                           1
      S1-11             X                                                           1
      S1-12                                           X              X              2
      S1-13             X                                                           1
      S1-14             X                                                           1
      S1-15             X                                                           1
      S1-16             X                                                           1
      S1-17             X                                                           1
      S1-18             X                                                           1
      S1-19                                                                         0
      S1-20             X                                                           1
      S1-21             X                                                           1
      S1-22             X                                                           1
      S1-23                                                                         0
      S1-24             X                                                           1
      S1-25                                                                         0
      S1-26             X                             X                             2
      S1-27             X                                                           1
                                                                                          Page 2 of 5


  Sample
Beneficiary-                                                                 No. of
  Month        Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
  S1-28             X                                                           1
  S1-29             X                                                           1
  S1-30                                                                         0
  S1-31             X                                                           1
  S1-32             X                                                           1
  S1-33                                                                         0
  S1-34                                                                         0
  S1-35             X                                                           1
  S1-36             X                                                           1
  S1-37                                                                         0
  S1-38             X                                                           1
  S1-39             X                                                           1
  S1-40                                                                         0
  S1-41             X                                                           1
  S1-42                                                                         0
  S1-43             X                                                           1
  S1-44             X                                                           1
  S1-45                                                                         0
  S1-46             X                                                           1
  S1-47                                                                         0
  S1-48                                                                         0
  S1-49             X                                                           1
  S1-50             X                                                           1
  S1-51             X                                                           1
  S1-52             X                                                           1
  S1-53                                                                         0
  S1-54             X                                                           1
  S1-55             X                                                           1
  S1-56             X                                                           1
  S1-57             X                                                           1
  S1-58             X                                                           1
  S1-59             X                                                           1
  S1-60                            X              X              X              3
  S1-61             X                                                           1
  S1-62             X                                                           1
  S1-63                                                                         0
  S1-64             X                                                           1
                                                                                          Page 3 of 5


  Sample
Beneficiary-                                                                 No. of
  Month        Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
  S1-65             X                                                           1
  S1-66             X                             X                             2
  S1-67             X                                                           1
  S1-68                                                                         0
  S1-69             X                                                           1
  S1-70             X                                                           1
  S1-71             X                                                           1
  S1-72                                                                         0
  S1-73             X                                                           1
  S1-74             X                                                           1
  S1-75             X                                                           1
  S1-76             X                                                           1
  S1-77             X                             X              X              3
  S1-78             X                                                           1
  S1-79             X                                                           1
  S1-80             X                                                           1
  S1-81                                                                         0
  S1-82                                                                         0
  S1-83             X                                                           1
  S1-84             X                                                           1
  S1-85             X                                                           1
  S1-86             X                                                           1
  S1-87             X                             X              X              3
  S1-88                                                                         0
  S1-89                                                                         0
  S1-90             X                                                           1
  S1-91             X                                                           1
  S1-92             X                                                           1
  S1-93             X                             X              X              3
  S1-94             X                                                           1
  S1-95             X                                                           1
  S1-96             X                             X              X              3
  S1-97             X                                                           1
  S1-98             X                                                           1
  S1-99             X                                                           1
  S1-100            X                             X              X              3
   S2-1             X                                                           1
                                                                                          Page 4 of 5


  Sample
Beneficiary-                                                                 No. of
  Month        Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
  S2-2              X                                                           1
  S2-3              X                                                           1
  S2-4              X                                                           1
  S2-5              X              X                                            2
  S2-6              X              X                                            2
  S2-7              X                                                           1
  S2-8              X                                                           1
  S2-9              X                                                           1
  S2-10             X                                                           1
  S2-11             X                                                           1
  S2-12             X                                                           1
  S2-13             X              X                                            2
  S2-14             X              X                                            2
  S2-15             X              X                                            2
  S2-16             X                                                           1
  S2-17             X              X                                            2
  S2-18             X              X                                            2
  S2-19             X              X                                            2
  S2-20             X                                                           1
  S2-21             X                                                           1
  S2-22             X                                                           1
  S2-23             X                                                           1
  S2-24             X              X                                            2
  S2-25             X              X                                            2
  S2-26             X              X                                            2
  S2-27             X                                                           1
  S2-28             X                                                           1
  S2-29             X                                                           1
  S2-30             X                                                           1
  S2-31             X                                                           1
  S2-32             X                                                           1
  S2-33             X              X                                            2
  S2-34             X              X                                            2
  S2-35             X              X                                            2
  S2-36             X              X                                            2
  S2-37             X              X                                            2
  S2-38                            X                                            1
                                                                                            Page 5 of 5


    Sample
  Beneficiary-                                                                 No. of
    Month        Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
    S2-39           X                X                                           2
    S2-40           X                X                                           2
    S2-41           X                X                                           2
    S2-42           X                                                            1
    S2-43           X                                                            1
    S2-44           X                                                            1
    S2-45           X                                                            1
    S2-46           X                                                            1
Category Totals    120              21              9              7            157
123 Beneficiary-Months in Error
                                                                                                                       Page 1 of5


                        APPENDIX D: STATE AGENCY COMMENTS 





                                                ~tate      of ~ em JjerS21l
CHRIS CHRISTIE                                 DEPARTMENT OF HUMAN SERV ICES
   Governor                       DIVISION OF MEDICAL ASSISTANCE AND HEALTH SERVICES
                                                          PO Box 712
KIM GUADAGNO                                                                                                        JENNIFER VELEZ
  LI. Governor
                                                     TRENTON, NJ 08625-0712                                          Commissioner
                                                                                                                    VALERIE HARR
                                                                                                                       Director
                                                        October 20, 2011



          James P. Edert
          Regional Inspector General for Audit Services
          Department of Health and Human Services
          Office of Inspector General
          Office of Audit Services Region II
          Jacob K. Javits Federal Building
          26 Federal Plaza - Room 3900
          New York, NY 10278

          Report Number: A-02-10-01029

          Dear Mr. Edert:

          This serves as response to your letter dated July 28, 2011 con cerning the Department of Health
          and Human Services, Office of the Inspector General's (OIG) draft report entitled "Review of
          Medicaid Payments for Services Provided Under New Jersey's Section 1915 (c) Community
          Care Waiver From January 1, 2005, Through December 31, 2007." Your letter provides the
          opportunity to comment on this draft report.

          The objective of this review was to determine whether the Division of Medical Assistance and
          Health Services' (DMAHS) claim for Medicaid reimbursement for the Community Care Waiver
          (CCW) program complied with certain Federal and State requirements.

          The draft audit report concluded that New Jersey's claims for reimbursement for some CCW
          program services did not fully comply with certain Federal and State requirements. While 14
          beneficiary-months of the 146 beneficiary-months in the random sample were properly claimed
          for Medicaid re imbursement for all CCW program services, the remain ing 132 beneficiary­
          months were not allowable for Medicaid reimbursement for services . Additionally, of these 132
          beneficiary months, 34 contained more than 1 deficiency. The draft report states that claims for
          unallowable services were made because (1) the Division of Developmental Disabilities
          (Division) and most providers did not ensure that they only claimed for documented, allowable
          CCW program services, (2) the Division did not ensure that CCW program services were
          provided only to beneficiaries with completed and approved individual habilitation plans; and (3)
          the Division did not ensure and document that all beneficiaries were assessed and certified to
          require ICF/MR level of care. Based upon the sample results, the auditor estimated that New
          Jersey was improperly re imbursed $90,363,264 in Federal Medicaid funds for CCW program
          services that did not compl y with certain Federal and State requirements during the calendar
          years 2005 through 2007 audit period.




                      N~    Jersey /" A" Equal Opportunity Employer •   Prlltt«J OIl Recycled Paper and Recyclabk
                                                                                                                       Page 2 of5



        James P. Edert 

        October 20, 20t 1 

        Page 2 





       We appreciate the opportunity to provide this response to the draft OIG audit report. Following
       are the auditors' recommendations and the Division of Medical Assistance and Health Services'
       responses:

        Recommendation 1:

       The OIG recommends that New Jersey refund $90,363,264 to the Federat Government.

       The State concurs with some but not all of the findings concerning claims for unallowable
       community care waiver program services. The State respectively requests that the amount of
       the refund be recalculated based upon the review of the supporting documentation retrieved by
       Division staff following the OIG Exit Conference. The majority of the supporting documentation
       was located in storage facilities where purged files are maintained. Our response to each of the
       auditor's findings is as follows :

       UNALLOWABLE COMMUNITY CARE WAIVER PROGRAM SERVICES

       Services Not Documented

       Finding:

       Section 1902(a)(27) of the Act, 42 U.S.C. paragraph 1396a(a)(27) mandates that States have
       agreements with Medicaid providers under which providers agree to keep such records as are
       necessary to disclose fully the extent of the services provided to individuals receiving assistance
       under the State plan . Costs must be adequately documented in order to be allowable under
       Federal awards. For 129 beneficiary-months, the State agency claimed re imbursement for
       some services that were not adequately documented. For these services, providers did not
       maintain service notes to support services billed.

       Response:

       The DMAHS concurs with some but not all of the auditor's findings. The state retrieved archived
       records that provide documentation of services rendered . See attached excel sheet and
       supporting documentation . The Division respectfully requests that these cites be removed
       based upon the documentation provided.

       Services Not Provided

       Finding:

       Pursuant to section 2497.1 of CMS's State Medicaid Manual states, Federal financial
       participation is available only for allowable actual expenditures made on behalf of eligible
       recipients for covered services rendered by certified providers. For 21 beneficiary-months, the
       State agency claimed Federal reimbursement for some services that were not provided . Claims
       were submitted for reimbursement for both respite care and community support services when
       the beneficiary only received one of the two services. Specifically, the providers' records



t Office of ln spec tor General note: The State agency provided the spreadsheet and supporting doc um entation under
   separate cover.
                                                                                                 Page 3 of5




James P. Edert
October 20, 2011
Page 3



indicated that the community support services were not provided for 11 beneficiary months and
the respite care services were not provided for 10 beneficiary months.

Response:

The DMAHS concurs with the auditor's findings . However, the Di vision identified a deficit in the
system in late 2007 and built in an edit in the form of a pre-claim duplicative report that allows
the Division to identify attendance records which are submitted for respite and individual
supports provided to the same individual simultaneously. At that time, the provider agencies are
contacted and verification is received for the actual service rendered before billing occurs.
Billing is then claimed only for the correct service rendered . The errors noted occurred prior to
the institution of the duplicative report for these procedure codes.

Individual Habilitation Plan Not Complete (IHP)

Finding:

Pursuant to the State's waiver agreement with CMS, an eligible CCW program beneficiary must
have an individual habilitation plan completed every 12 months by a qualified mental retardation
professional (QMRP) , and the Division and the CCW program service provider must maintain
documentation of the individual habilitation plans for at least 3 years. For 15 beneficiary
months, the State agency claimed reimbursement for some services when neither the Division
nor the provider could provide approved or completed individual habilitation plans.

Response:

The DMAHS agrees with some, but not all of the auditor's findings. Several of the IHPs were
located in storage facilit ies and/or provider agencies storage facilities. Please see supporting
documentation provided and noted on the excel chart. The Division respectfully requests that
these cites be removed based upon the documentation provided.

level of Care Assessment Not Documented

Finding:

Pursuant to the State's waiver agreement with CMS, an eligible CCW program beneficiary must
be assessed and certified by a qualified mental retardation professional to need ICF/MR level of
care every 12 months, and the Division must maintain documentation of the assessments for at
least 3 years. For 13 beneficiary months, the State agency claimed reimbursement for services
provided to beneficiaries for whom the ICF/MR level of care assessment was not approved by a
qualified mental retardation professional.

Response:

The DMAHS agrees with some, but not all of the auditors fi ndings. Several of the IHPs were
approved and signed by the habilitation plan coordinator (HPC), but the HPC did not also sign
the ICF/MR recertification section. At the exit conference our Waiver Administrator, made the
argument that the HPC is the Qualified Mental Retardation Professional and his/her signature in
                                                                                                 Page 4 of5




James P. Edert
October 20, 2011
Page 4



th e attendance section demonstrates that the level of care determination has been re-certified.
Service Plans that contain the QMRP signature in the attendance section have been provided.
Please refer to the excel chart for specifics. The Division respectfully requests that these cites
be removed based upon the documentation provided mitigating the findings. The Division
maintains and respectfully requests that these cites be reconsidered for removal based upon
the documentation provided that mitigates the findings.

CAUSES OF UNALLOWABLE CLAIMS

Recommendation 2:

The OIG recommends that the State agency reguire the Division and providers to ensure
t hat they only claim for documented, allowable CCW program services:

Where services were not documented many of the deficiencies reflected a lack of a day
program objective requiring daily training and documentation. Case Managers will be trained by
the Quality Unit staft regarding the need for Day Habilitation programs to be in compliance with
the Supported EmploymenUDay Program Manual. Additionally, the CCW Monitor reviews 288
cases annually. DDD modified the electronic application in October 2011 to capture day
habilitation attendance reporting accuracy by the CCW Monitor.

Recommendations 3 and 4:

The OIG recommends that the State agency require the Division to ensure that CCW
program services are provided only to beneficiaries for whom there is a completed and
approved individual habilitation plan.

The OIG recommends that the State agency requi re the Division to ensure that all CCW
program beneficiaries approved for services have been assessed and certified to need
an ICF/MR level of care.

The Division submits that in conjunction with the DMAHS and the waiver administrators for the
other four (4) 1915(c) Home and Community Based Service Waivers, mandatory trainings were
conducted for all case managers statewide serving any of the 1915(c) HCBS waivers. The
training addressed the si x basic assurances. Level of Care and Se~! ice Planning for case
managers were addressed in the training . This training was based upon the "Training for Case
Managers: Home and Community-Based Services (HCBS) Waiver Assurances to Improve
Quality" developed by the University of Southern Maine, Muskie School of Public Service out of
a contract with CMS. Trainings were conducted with case management supervisors on
September 22, 2010 and September 24, 2010. Trainings were conducted with case managers
on October 19, 2010, October 21, 2010, October 26, 2010 and December 14, 2010.

Additionally, the Division has implemented quality monitoring systems to ensure that Plans of
Care are completed timely and that individuals have been assessed and certified to need an
ICF/MR level of care. An electronic platform that tracks two tiers of oversight was developed
and is currently being implemented. This platform allows Case Management Supervisors to
review monthly a five percent sampling of plans of care and ICF/MR level of care determinations
                                                                                              Page 5 of5




James P. Edert
October 20,2011
Page 5



In addition to the Community Care Waiver Monitor reviewing 288 cases annually. The Division
is in the process of developing reports for these applications.

If you have any questions or require additional information , please contact me or Richard Hurd
at 609-588-2550,

                                            Sincerely.



                                           Valerie Harr
                                           Director

VH :H
c:      Jennifer Velez
        Richard Hurd
        Maribeth Robenoll
